CERTIFICATE OF SERVICE
NO. 19-1257
Mark Brnovich, Attorney General of Arizona, et al.
Petitioner(s)
v.
Democratic National Committee, et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
REPUBLICAN STATE LEADERSHIP COMMITTEE AMICUS AT PETITION STAGE IN SUPPORT OF
PETITIONER(S), by mailing three (3) true and correct copies of the same by USPS Priority mail, postage
prepaid for delivery to the following addresses:
Oramel Horace Skinner
Arizona Attorney General's Office
2005 N. Central Ave.
Phoenix, AZ 85004
(602) 542-8327
o.h.skinner@azag.gov
Counsel for Mark Brnovich, et al.

Jessica Ring Amunson
Jenner & Block LLP
1099 New York Avenue NW
Suite 900
Washington, DC 20001
(202) 639-6023
JAmunson@jenner.com
Counsel for Katie Hobbs, Arizona Secretary of
State

Lucas DeDeus

June 1, 2020
SCP Tracking: Spies-International Square-Cover Cream

